EPA Implementation of Government Performance and Results Act

                 EPA Office of Inspector General
                 EPA Implementation of Government
                 Performance and Results Act
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY

     PURPOSE

     BACKGROUND

     RESULTS IN BRIEF

     RECOMMENDATIONS

     AGENCY COMMENTS AND OIG EVALUATION

CHAPTER 1

     INTRODUCTION
          Purpose

            Background

            Scope and Methodology

            Prior Audit Coverage

CHAPTER 2

     EPA'S PLANNING, BUDGETING AND ACCOUNTABILITY TASK FORCE ESTABLISHED A
     FRAMEWORK FOR IMPLEMENTING THE GOVERNMENT PERFORMANCE AND RESULTS
     ACT

CHAPTER 3

     EPA CAN BETTER ARTICULATE ITS DIRECTION BY FINALIZING ITS ENVIRONMENTAL
     GOALS, UPDATING ITS STRATEGIC PLAN, AND DEVELOPING A CLEARER AND MORE
     COMPLETE MISSION STATEMENT
          EPA Needs To Finalize its National Environmental Goals

            EPA Needs To Develop Agency Goals

            EPA Needs to Update Its Strategic Plan - "A New Generation of Environmental Protection"
            A Clearer and More Complete Mission Statement Will Provide Guidance and Focus for the
            Agency

      RECOMMENDATIONS

      AGENCY COMMENTS AND OIG EVALUATION

CHAPTER 4

      RESULTS ORIENTED MANAGEMENT REQUIRES TIMELY, ACCURATE, AND COMPLETE
      PERFORMANCE DATA
           Some Performance Plans Did Not Discuss How Performance Data Will Be Verified and
           Validated

            Prior Audits Have Identified Problems With Data Quality

            Some Agency Program Offices Have Developed Techniques to Verify and Validate Performance
            Data

            Policies and Procedures for Program Evaluations Need to be Established

      RECOMMENDATIONS

      AGENCY COMMENTS AND OIG EVALUATION

CHAPTER 5

      COST INFORMATION IS CRITICAL TO THE IMPLEMENTATION OF GPRA
            Tracking the Cost of GPRA Performance Pilots

            Tracking the Cost of EPA's Performance Partnership Grants

            Federal Cost Accounting Requirements

            Implementing Cost Accounting Within EPA

      RECOMMENDATIONS

      AGENCY COMMENTS AND OIG EVALUATION

APPENDIX I - AGENCY COMMENTS (only available in hardcopy)

APPENDIX II - REPORT DISTRIBUTION LIST
